 CR-B-99-01




       AUDIT
      REPORT

                                          THE
                              U.S. DEPARTMENT OF ENERGY'S
                                 WORKING CAPITAL FUND




                                        OCTOBER 1998




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                            DEPARTMENT OF ENERGY
                               Washington, DC 20585

                                   October 1, 1998

MEMORANDUM FOR THE DIRECTOR, BUSINESS MANAGEMENT STAFF

FROM:                  William S. Maharay
                       Acting Manager, Capital Regional Audit Office,
                       Office of Inspector General

SUBJECT:               INFORMATION: Audit Report on the Department's Working Capital
                       Fund

BACKGROUND

The Department established the Working Capital Fund (Fund) in January 1996 as a financial
management tool for charging the costs of common services provided at Headquarters to
Departmental program offices. The objectives in establishing the Fund were to increase
efficiency of the Department's operations, improve management of administrative services
through the use of flexible and business-like finance methods, and provide an accurate full cost
budget for programs and activities.

RESULTS OF AUDIT

Although the Fund is making progress in meeting its objectives, additional management attention
could result in further cost reductions to the Department. The operation of the Fund promoted
economies and efficiencies in the use of administrative services by the Department and met the
expectations established by the Congress. Despite these achievements, we identified three areas
that require additional management attention to facilitate further cost reductions in the
Department's operations.

First, HR incurred a disproportionate share of the Fund's costs. HR did not focus enough
attention on minimizing its own use of mail, telephone, and LAN services provided through the
Fund. As a result of unnecessary subsidies to business lines, HR created false economies and
efficiencies for the other Departmental programs and forfeited the opportunity for savings to the
Department as a whole. HR resource managers should implement a process to optimize their
use of Fund services and periodically perform comparative analysis of use to that of other
organizations.

Second, the operation of the Department's supply business has posed persistent financial and
management problems. The Board had not developed procedures to assess whether Fund
business lines are competitive with outside vendors, correct inefficient operations, and shut down
those unable to compete. The Fund Board risked permitting inefficient, noncompetitive business
lines to continue. We recommend that HR develop procedures to periodically assess business
lines for efficiency and cost effectiveness in providing their goods and services. In addition,
procedures need to be developed to address how and when to discontinue business lines that
cannot compete with outside sources.
Third, the Fund's financial management system (FMS) did not efficiently provide timely and
accurate information. During the latter part of Fiscal Year 1996 when system implementation
steps were initiated, Fund management did not fully coordinate their efforts with the business
line managers and the CFO in designing and implementing an integrated financial management
system. In Fiscal Year 1997, the Department spent about $202,000 on modifications to the
billing system without effectively addressing the performance problems. Fund Management and
the business lines in conjunction with the CFO should take steps to improve the performance of
the FMS.

MANAGEMENT REACTION

Management concurred with the findings and recommendations and agreed to take corrective
actions. The Office of Human Resources and Administration planned to: (1) review their use of
Fund services during the first half of Fiscal Year 1999, (2) develop procedures both for cost
effectiveness comparisons and for deciding whether and how to discontinue services, (3) develop
procedures that require a case-by-case review by the Fund manager of any new system
purchases, and (4) coordinate with the CFO and CIO on the BMIS initiative.
The U.S. Department Of Energy's Working Capital Fund




TABLE OF
CONTENTS



                   Overview

                   Department Working Capital...............................................................1


                   Use of Fund Resources

                   Details Of Finding ..............................................................................7

                   Recommendations And Comments ......................................................9


                   Assessing The Validity Of Fund Business Lines

                   Details Of Finding ............................................................................10

                   Recommendations And Comments ....................................................12


                   The Fund's Financial Management System

                   Details Of Finding ............................................................................13

                   Recommendations And Comments ....................................................15

                   Appendices

                   1. Scope And Methodology.............................................................16

                   2. Other Matters..............................................................................17
Overview
INTRODUCTION AND   The Department established the Working Capital Fund (Fund) in
OBJECTIVE          January 1996 as a financial management tool for charging the costs of
                   common services provided at Headquarters to Departmental program
                   offices. Prior to establishing the Fund, the Office of Human Resources
                   and Administration (HR) paid most of the costs of these services from
                   the Departmental Administration account without attempting to
                   allocate the costs back to the programs using the services. Since the
                   Fund's implementation, Departmental program offices have made
                   periodic advance payments to the Fund from their program direction
                   accounts and are then charged for the services they consume. The
                   Department's objectives in establishing the Fund were to increase
                   efficiency of the Department's operations, improve management of
                   administrative services through the use of flexible and business-like
                   finance methods, and provide an accurate full cost budget for
                   programs and activities. The costs of the services administered by the
                   Fund are expected to total about $80 million in Fiscal Year 1998,
                   which excludes Federal salaries and some other indirect charges
                   incurred by HR.

                   The Fund organization consists of a Board, a Fund manager, business
                   line managers, and customer program managers. The Board is made
                   up of representatives from Departmental programs appointed by the
                   Deputy Secretary. The Board and its components oversee
                   development of pricing policy, administrative controls, and
                   coordination of dispute resolution. The Office of Human Resources
                   Business Management staff (HR-1) is responsible for the Fund's
                   financial position. This includes overseeing billing, revenue, cost, and
                   budget activities. The business line managers monitor and control the
                   costs of services provided through the Fund's 10 business lines. The
                   Office of Administrative Services (HR-2) oversees five business lines:
                   Building Occupancy, Printing and Graphics, Copying, Mail Services,
                   and Supplies. The Office of Information Management (HR-4)
                   oversees three business lines: Telephones, Networking, and Desktop
                   Support. The Office of Procurement and Assistance (HR-5) oversees
                   the Contract Closeout Business Line. The Office of Personnel Policy,
                   Programs and Assistance (HR-3) and the Office of Budget (CR-14)
                   manages the newly added Payroll and Personnel business line.
                   Customer program managers oversee purchases of administrative
                   services offered by the business lines and, when possible, seek out
                   opportunities to optimize resource use and keep administrative costs
                   to a minimum.




Page 1                                              Department Working Capital Fund
                  To support its operation, the Fund operates a financial management
                  system (FMS) that links the business lines to the Department's
                  Headquarters accounting system. Each business line uses an information
                  system, referred to as a feeder system, to collect and export monthly
                  billing information to HR-1. HR-1 summarizes the data imported from
                  the feeder systems using a billing information system. The billing system
                  is used to create the customers' monthly billing reports and export data
                  to the Department's Headquarters accounting system, which feeds the
                  Department's core accounting system.

                  The House of Representatives Committee on Appropriations
                  (Committee) supports the Department's use of the Fund in the annual
                  budget request. The Committee's approval of the Fund for Fiscal Years
                  1997 and 1998 was contingent on the Department establishing
                  administrative controls to ensure the following:

                         • Federal salaries or other expenses of Federal employees
                           should not be charged to the Fund.
                         • Departmental representation on the Board establishing
                           policies and procedures must be broad based and include
                           smaller organizations.
                         • Pricing policies must be sound, defensible, and not include
                           added factors for administrative costs.
                         • Advance payments from customers must be no more than
                           necessary to cover outstanding commitments.
                         • A process must be established to dispose of excess advance
                           payments.
                         • The Fund must not be managed in a manner that produces a
                           profit.
                         • The Fund must not be used as a vehicle for maintaining
                           unencumbered funds.
                         • The Fund must be audited each year by the Office of
                           Inspector General.

                  The objective of the audit was to determine whether the Fund was
                  operated in an economic and efficient manner. In addition, we followed
                  up on management's progress on implementing recommendations from
                  last year's audit of the Fund.


CONCLUSIONS AND   Although the Fund was making progress in meeting its objectives,
OBSERVATIONS      additional management attention could result in further cost reductions
                  to the Department. The operation of the Fund promoted economies and


Page 2                                              Department Working Capital Fund
                         efficiencies in the use of administrative services by the Department and
                         met the expectations established by the Congress. In addition, Fund
                         management implemented corrective actions for recommendations issued
                         during last year's audit, continued to improve the operation of the Fund,
                         and assisted another Government agency in developing its own working
                         capital fund.


Cost Reductions          The operation of the Fund promoted economies and efficiencies in the use
                         of administrative services by the Department. During Fiscal Years 1997
                         and 1998, actual costs incurred by the Fund have been lower than
                         budgeted amounts. In Fiscal Year 1997, the total costs for the Fund
                         totaled about $3 million less than the budgeted amount based on historical
                         use. This trend continued into Fiscal Year 1998 when the budget estimate
                         for the Fund was $85.2 million. Yet, as of the end of the second quarter,
                         the Department was on track to spend only $79.2 million. Fund
                         management reported that these savings were primarily the result of the
                         participation by program managers in the day-to-day decision making in
                         the consumption of the goods and services offered by the Fund. In our
                         survey of program customers, the majority stated that they had taken a
                         proactive approach to reduce overhead costs through reductions in use of
                         office space, telephone lines, supplies, and mail stops. Also, business line
                         managers continued to contribute to cost reductions. For instance, the
                         Mail Services Business Line reduced the cost per mail stop from $10,000
                         to $9,500 after the first quarter of this year through a reduction in the
                         support service contract.


Congressional            Fund management followed administrative controls that met the
Expectations             expectations established by the Congress. Specifically, we reviewed costs
                         incurred by the Fund for the inclusion of Federal salaries or other expenses
                         of Federal employees in the Fund and found none. We observed that the
                         representation on the Board was broad based and included smaller
                         organizations. We concluded last year that the pricing policies were
                         sound and defensible and were unchanged this year. We tested the
                         administrative controls without identifying any discrepancies or
                         exceptions. Through review of the financial statements and pricing
                         policies, we concluded that the Fund was not being managed in a manner
                         that produced a profit.


Fiscal Year 1997 Audit   Fund management concurred with and implemented corrective actions to
                         resolve prior year audit recommendations. During the Fund's first full

Page 3                                                        Department Working Capital Fund
                         year, we conducted an audit and issued the report, "Audit of the Internal
                         Control Structure of the Department of Energy's Working Capital
                         Fund," No. CR-B-98-01, dated October 8, 1997. We addressed four
                         conditions that required management's attention. In response to these
                         conditions, Fund management developed formal policies and procedures
                         and began conducting quarterly financial reviews of the business lines.
                         Our recommendation that the Board consider a simpler allocation
                         process for billing contract audit services was resolved by the
                         Committee. In its Fiscal Year 1998 report, the Committee
                         recommended that the Contract Audit Business Line be removed from
                         the Fund. The Committee reported that costs incurred for contract
                         audits were direct costs and, as such, should not be included in the Fund.
                         More recently, the Fund manager addressed our recommendation to
                         identify and provide information to the Board on all direct and indirect
                         costs associated with the operation and administration of the Fund.
                         During May 1998, the Fund manager issued a paper on inclusion of
                         Federal salaries and other indirect costs in the Fund and the impact on
                         the viability of each business line if these costs were included in the
                         pricing structure for Fiscal Year 2000.


Continued Improvements   Fund management continued its efforts to improve the operation of the
In Fund Operations       Fund during Fiscal Year 1998. The Fund emphasized using newly
                         created reports from the Headquarters accounting system to assist
                         business line managers and customers in decision making. The Office of
                         Chief Financial Officer (CFO) began preparing financial statements,
                         which are expected to improve financial management of business lines.
                         Also, the CFO, Office of Financial Policy, issued new guidance on the
                         handling of advance payments including how to treat one-year
                         appropriations.

                         Program customers responded favorably to questions pertaining to the
                         Fund's performance in meeting its objectives. We asked 24 program
                         resource managers to respond to questions pertaining to the Fund's
                         performance, their efforts to satisfy the Fund's objectives, and ways to
                         improve the operation of the Fund. Sixteen managers responded to the
                         survey and the majority responded that they:

                                • were satisfied with the Fund's operation,
                                • believed the Fund had met its objective of initiating cost
                                  savings by allowing managers to oversee the day-to-day use
                                  of goods and services,


Page 4                                                     Department Working Capital Fund
                              • would accept reductions in services if necessary to benefit
                                the Department as a whole,
                              • advanced payments to the Fund in a timely manner,
                              • thought the level of detail provided by the monthly bill was
                                adequate,
                              • were not willing to use their money to pay for new financial
                                management systems,
                              • had not purchased or developed internal financial
                                management systems to assist in managing their use of the
                                Fund's goods and services,
                              • did not use a significant amount of human resources to
                                manage their use of the Fund's goods and services, and
                              • did not want additional business lines added to the Fund.

                       In addition, Fund management was in the process of assisting the
                       Central Intelligence Agency (CIA) in developing its own working
                       capital fund. CIA representatives learned through a Government
                       contractor organization that the Department's Fund could be used as a
                       benchmark. On several occasions, CIA representatives attended Fund
                       Board meetings and met with key officials to examine Fund operation
                       both from the customer and business line perspective. One CIA
                       official stated that they were impressed with the relationship between
                       Fund management and its customers as well as the flexibility of its
                       operation.


Additional Attention   Despite these achievements, we identified three areas that require
Required               additional management attention to facilitate further cost reductions in
                       the Department's operations. Specifically:

                       • HR incurred a disproportionate share of the Fund's costs. As a
                         result of subsidies and inefficiencies, HR forfeited the opportunity
                         for savings to the Department.

                       • The operation of the Department's supply business has posed
                         persistent financial and management problems, including estimated
                         financial losses of over $1 million. Without procedures to assess
                         performance, the Fund risked permitting inefficient, unprofitable,
                         and noncompetitive business lines to continue operating
                         indefinitely.




Page 5                                                  Department Working Capital Fund
         • The Fund's FMS did not efficiently provide timely and accurate
           information. As a result of an uncoordinated approach to system
           development, the Department spent about $202,000 during Fiscal
           Year 1997 without effectively addressing the system's performance
           problems.


                                                           /S/
                                      Office of Inspector General




Page 6                                   Department Working Capital Fund
Use Of Fund Resources
Reasonableness Of   As a customer organization, HR incurred a disproportionate share of
Fund Costs          the Fund's costs. During Fiscal Year 1997, HR accounted for 17.9
                    percent (1,213) of the Department's 6,788 Federal and contractor staff
                    working in the Capital area, but expended 23.5 percent of the $79.8
                    million Fund. Analysis of use in the business lines providing mail,
                    telephone, and network services underscores the disparity in
                    expenditures. For example, in Fiscal Year 1997:

                           • HR funded 36 mail stops at a cost of $378,000 excluding
                             the cost of space and other Federal subsidies. The average
                             number of mail stops for the Department's other customer
                             organizations was only three. We also observed that many
                             HR-sponsored mail stops shared the same floor of the same
                             building.

                           • HR's use of telephone services was also disproportionately
                             higher than that of other customer organizations. HR
                             funded over 2,600 telephone lines while employing about
                             1,213 Federal and contractor employees. Other customer
                             organizations were able to work with a smaller ratio of
                             telephone lines to employees.

                           • A similar condition existed in HR's use of network services.
                             HR funded over 1,400 local area network (LAN)
                             connections while employing 1,213 Federal and contractor
                             workers.

                    In Fiscal Year 1997, HR was the largest user of Fund services across all
                    business lines. On average, each HR employee (Federal and
                    contractor) used about $15,400 of the Fund's goods and services. The
                    average use of Fund goods and services per non-HR employee was
                    about $10,900. HR's above average use continued into Fiscal Year
                    1998, and future budget projections suggest it will continue into Fiscal
                    Year 1999.

                    HR management officials provided several explanations for the above
                    average usage rates. For example, HR pays for the space used by
                    Departmental services such as the health centers, libraries, and similar
                    services. Also, HR bears the cost for all unassigned telephone and
                    LAN connections located throughout the Headquarters complex and
                    the supply costs incurred by contractors working for HR. Moreover,
                    the officials explained that reductions in its administrative staff while


Page 7                                                                     Details Of Finding
                         maintaining its full range of service operations resulted in the
                         disproportionately high number of mail stops. Finally, HR management
                         stated that in some cases reducing HR usage would have meant
                         transferring costs to other customers rather than reducing overall
                         Departmental spending. While these explanations could justify some
                         above average usage, officials agreed that more effort is needed to
                         identify and reduce inefficiencies in the use of Fund services.


Review And Analysis Of   One of the goals of the Fund is to increase the efficiency of the
Fund Costs Expected      Department's operations by having the cost of administrative services
To Meet The Fund's       reflected in day-to-day decision making by program managers. To
Objectives               keep administrative costs to a minimum, customer organizations must
                         be proactive in seeking out opportunities to optimize resource use and
                         by comparing their performance with other users.


Review Approach          HR did not focus enough attention on minimizing its own use of mail,
Not Implemented          telephone, and LAN services provided through the Fund. For example,
                         HR did not have a method for determining who was using its assigned
                         telephone lines. In addition, HR had not completed a comprehensive
                         inventory of desktop computers, which would have been helpful in
                         identifying unused network connections. Although we were provided
                         some valid reasons for HR's higher use of certain services, management
                         had not conducted formal exercises to optimize use of mail, telephone,
                         and network services or compared their use with other organizations.


Potential Savings        As a result of unnecessary subsidies to business lines, HR created false
Through Review           economies and efficiencies for the other Departmental programs and
Action                   forfeited the opportunity for savings to the Department as a whole. In
                         cases where Fund billing represented the distribution of fixed costs to
                         the Department, higher than average use of services by HR resulted in
                         lower costs for the other program customers. Although we recognize
                         the existence of significant fixed costs and accept HR's reasons for
                         higher use in some areas, the conditions cited above indicate
                         opportunities for increased efficiencies. Had HR consumed goods and
                         services provided through the Fund at a similar rate per person as other
                         customer organizations, unit prices remaining constant, the potential
                         savings for Fiscal Year 1997 would have been about $5 million.




Page 8                                                                        Details Of Finding
RECOMMENDATION   HR resource managers should implement a process to optimize their
                 use of Fund services and periodically perform comparative analysis of
                 use to that of other organizations.


MANAGEMENT       Management concurred with the need to review the use of Fund
REACTION         services by their offices. Management has begun implementing
                 corrective actions that resulted in a significant reduction in mail stops.
                 Management plans to perform a review of their use of Fund services
                 during the first half of Fiscal Year 1999. This review will focus on such
                 "infrastructure" items as space, telephone and LAN lines, and mail
                 stops. Management believed that reducing their use of these services
                 will likely increase the proportion of fixed costs paid by other
                 Departmental customers. Accordingly, while management agreed that
                 a review process was warranted, the highest priority should continue to
                 be placed on improving the efficiency of overall Departmental use of
                 administrative resources, rather than cost shifting between HR and
                 other customers.


AUDITOR          Management's comments and proposed actions are responsive to our
COMMENTS         recommendation. We agree that the highest priority should be placed
                 on improving the efficiency of overall Departmental use of
                 administrative resources. However, we believe that reductions in
                 unnecessary usage by individual customers, including HR, are a key
                 component in achieving increased efficiency for the Department as a
                 whole. In the long term, reductions in usage will provide opportunities
                 for overall cost reduction rather than mere cost shifting.




Page 9                                              Recommendations And Comments
Assessing The Validity Of Fund Business Lines
Supply Business Line      The operation of the Department's supply store has not increased the
Not Clearly Competitive   economy and efficiency of the Department's administrative operations.
                          Since the Fund's inception, customers indicated that the Department's
                          supply store was not competitive with outside sources. To test this
                          assertion, we conducted a price comparison of items offered by the
                          Department's supply store to identical items offered by an outside
                          vendor. We selected 26 out of 902 items and compared the prices to the
                          prices offered by an outside vendor. Twenty of the 26 items selected
                          (77 percent) were more expensive at the Department's supply store than
                          at the outside vendor, though convenience, ordering costs, and delivery
                          times were not fully reflected in vendor price quotes. While a price
                          comparison performed by the Supply Business Line concluded that their
                          prices were competitive, HR management agreed that many items could
                          be bought from outside sources at lower prices.

                          In addition, the Fund's pricing policies do not recover full costs,
                          indicating the Department's supply store is not increasing the efficiency
                          of the Department's administrative operations. Pursuant to
                          Congressional guidance, the pricing policy for the Department's supply
                          store excludes Federal salaries and certain other indirect costs. These
                          costs were estimated to be over $1 million for Fiscal Year 1999.
                          Although outside vendors must recover the full cost of their operations
                          and presumably generate a profit, they were still able to effectively
                          compete with the prices for supplies offered by the Department's supply
                          store. The inclusion of Federal salaries and other indirect costs to the
                          current pricing policy would cause a significant increase in the price of
                          items offered by the Department's supply store and make the store even
                          less competitive with outside vendors. However, consideration would
                          also have to be given to charging programs for the receiving and
                          transportation costs for outside purchases.

                          The Fund has established a market environment that provides customer
                          organizations expanded flexibility to make decisions that affect the cost
                          of supporting their program mission. In the case of the Department's
                          supply store, program managers have increasingly decided to purchase
                          supplies from outside sources. Officials from several customer
                          organizations told us that they used their Government purchase card to
                          go to outside sources for lower prices and a larger selection of items.


Responsibility For        One of the primary objectives of the Fund is to provide customer
Assessing Validity        organizations the ability to make decisions that affect the economy and


Page 10                                                                        Details Of Finding
                      efficiency of supporting their program mission. Such flexibility can have
                      adverse effects on high cost business lines. The Fund's Board is
                      responsible for ensuring that Fund activities are operated in a business-
                      like manner by assessing the validity of business lines and the validity of
                      continuing services.


Need For Periodic     The Board had not developed procedures to assess whether Fund
Review Of Business    business lines are competitive with outside vendors, correct inefficient
Lines                 operations, and shut down those unable to compete. The indicators that
                      the operation of the supply business line was not competitive, or
                      necessarily benefiting the Department, were present as early as the
                      second quarter of Fiscal Year 1997. These indicators were in the form
                      of customer complaints about price and selection, reduction in sales
                      volume, and losses incurred. During the past year, efforts were made to
                      stem the supply store's losses. A new manager took over the business
                      line and made operational changes. For example, supply store personnel
                      conducted the first physical inventory in several years. In addition,
                      procedures were changed to include the 30 percent markup on supplies
                      picked up by customers from the warehouse. Finally, Fund management
                      closed several self-service stores that were operating at a loss. Program
                      offices were asked to fund these stores, but funding was not available to
                      continue operations. During April 1998, the Office of Administrative
                      Services developed and presented corrective actions to stem losses in
                      the Supply Business Line. The Board agreed with the proposed
                      corrective actions and recommended that the Administrative Services
                      Working Group meet to develop further options for consideration.


Continued Operation   The Fund Board risked permitting inefficient, noncompetitive business
Of Inefficient And    lines to continue. The costs for the Department's supply store, for
Uneconomical          example, exceeded revenues by $760,000 in Fiscal Year 1997. By
Business Lines        March in Fiscal Year 1998, the Department's supply store costs
                      exceeded revenues by $409,000. This loss excluded the cost associated
                      with Federal salaries. HR estimated the cost of Federal salaries
                      associated with the Supply Business Line in the Fiscal Years' 1999 and
                      2000 budget requests to be about $372,000 and $383,000, respectively.
                      In addition, the cost of space occupied by the business line was not
                      included in these losses. HR estimated this cost to be about $725,000
                      for Fiscal Year 1999. In addition, the Desktop and Graphics Business
                      Lines might not be competitive with outside sources if Federal salaries
                      were included in their pricing structures.


Page 11                                                                     Details Of Finding
RECOMMENDATION   We recommend that the Fund manager and the Board develop
                 procedures to periodically assess business lines for efficiency and cost
                 effectiveness in providing their goods and services. Management's
                 assessment should include full cost comparisons to outside sources to
                 ensure that the objectives of the Fund are being met. In addition,
                 procedures need to be developed to address how and when to
                 discontinue business lines that cannot compete with outside sources.


MANAGEMENT       Management concurred with the need to develop procedures both for
REACTION         cost effectiveness comparisons and for deciding whether and how to
                 discontinue services. The Fund manager, in conjunction with the
                 Working Capital Fund Board, will develop procedures during Fiscal
                 Year 1999.

                 Management reported some new developments in the Supply Business
                 Line since the completion of the audit field work. These actions
                 included closing self-service stores and conducting a market price
                 comparison. While this business line incurred losses of about $1 million
                 through mid-year, Fund management anticipated that the line would
                 break even in Fiscal Year 1998. Management recognized that a full
                 analysis of profit and loss for this business line would need to be
                 performed after completion of a physical inventory.


AUDITOR          Management's comments and proposed corrective actions are responsive
COMMENTS         to our recommendation.




Page 12                                              Recommendation And Comments
The Fund's Financial Management System
Financial Management        The Fund's financial management system (FMS) did not efficiently
System Has Continual        provide timely and accurate information. Since the Fund's inception,
Performance Problems        there has been a continual problem with providing monthly billings to
                            customers and updating the Headquarters accounting system in a timely
                            manner. Fund management established an objective of having customer
                            bills ready by the second calendar week of each month. Since the start
                            of our audit in March 1998, the Fund has managed to meet this
                            timeliness objective for 5 consecutive months. Prior to that, the
                            customers received their monthly billings before the 15th in only 2 of
                            the 17 previous months. These billings have been anywhere from
                            several days to over a week past the goal. In addition, the Fund has
                            continued to have delays in entering the aggregate month end
                            information into the Headquarters accounting system. The CFO's
                            policy is to post month-end transactions by the fifth working day. The
                            Fund has not met this requirement during Fiscal Year 1998.

                            We also noted inaccurate information in the internal reports prepared
                            by the billing system. Specifically, summary reports did not agree with
                            the detail bills produced by the system. While reviewing the
                            preparation of the May 1998 bill, we identified several discrepancies
                            between the source documents prepared by feeder systems and the files
                            used to update the billing system. These discrepancies, though not
                            material, were carried forward to the monthly bill and exported to the
                            Headquarters accounting system.


Financial System Should     Financial management systems should support the partnership between
Provide Complete, Timely,   program and financial managers, ensure the integrity of the information,
And Accurate Information    and measure performance. To achieve these objectives, systems should
                            collect timely, accurate, complete, reliable, and consistent information.


Lack Of Coordination        During the latter part of Fiscal Year 1996, when implementation steps
Within HR And With CFO      were initiated, Fund management did not fully coordinate their efforts
                            with the business line managers and the CFO in designing and
                            implementing an integrated financial management system. Since its
                            inception, Fund management relied on contractor support to modify the
                            system's software to correct performance problems and enhance system
                            output. During the second quarter of Fiscal Year 1998, Fund
                            management concluded that the billing system had proven difficult to
                            use even for limited billing functions. Fund management hired a
                            financial management consultant to identify options for resolving the


Page 13                                                                         Details Of Finding
                       FMS shortcomings, determine the functional requirements of the FMS,
                       and recommend options for a commercial FMS to replace the existing
                       system. While this effort was on-going, some business lines purchased
                       or planned to purchase new feeder systems and the CFO was in the
                       early stages of replacing the core accounting system.

                       During this time, the Fund manager, business line managers, and the
                       CFO were not acting in unison to develop an integrated FMS. For
                       example, business line managers were preparing to buy new feeder
                       systems to integrate with the current billing system, yet the Fund
                       manager was considering replacing that system. Meanwhile, the CFO
                       was in the process of replacing the existing core accounting system
                       with the Business Management Information System (BMIS). We
                       believe that failure to coordinate these activities could add to problems
                       integrating the systems making up the FMS and the Department's
                       Headquarters and core accounting systems.

                       The Fund, business line, and CFO managers held several meetings
                       beginning in May 1998. The objectives of these meetings were to
                       discuss the findings reported by the financial management consultant
                       and to agree on a plan to improve the current FMS, while maintaining
                       compatibility with the BMIS. Based on the cost estimates for the
                       installation of a commercial system provided by the financial
                       management consultant, the Fund manager advised the Fund Board
                       that, in conjunction with the CFO, the Fund staff should find ways to
                       reengineer the FMS to eliminate steps and make better use of its and
                       the Headquarters accounting system's existing capabilities. This
                       decision was in line with the position taken by program customers in
                       recent surveys conducted by HR and our office, in which most
                       respondents agreed that they were unwilling to pay for a new FMS.
                       We believe these meetings, although late, were a positive and welcome
                       example of coordination between Fund management and the CFO.


Performance Problems   In Fiscal Year 1997, the Department spent about $202,000 on
Continue To Exist      modifications to the billing system without effectively addressing the
                       performance problems. The Fund and its customers rely on the
                       Headquarters accounting system reports to make informed decisions
                       regarding their costs, revenues, and use of goods and services. Without
                       timely and accurate information, customers could exceed their budgets,
                       neglect to pay for services received, and forgo increasing the efficiency
                       of the Department's administrative operations. In addition, the Fund


Page 14                                                                     Details Of Finding
                 risks spending additional money on new systems that are not compatible
                 with each other or with the Department's accounting systems.


RECOMMENDATION   Fund Management and the business lines in conjunction with the CFO
                 should (1) identify the functional requirements of the FMS; (2) consider
                 integration with feeder, billing, and the Headquarters accounting
                 system; (3) coordinate this effort with HR's development of an
                 Information Technology Architecture; and (4) develop procedures that
                 require a case-by-case review by the Fund manager of any new system
                 purchases.


MANAGEMENT       Management concurred with the recommendation. Both Fund
REACTION         management and program customers agreed that the Department needs
                 to be cautious about investing in new financial systems. The current
                 billing system, while producing adequate results for Fiscal Years 1997
                 and 1998, is not adequate to meet future information requirements.
                 Yet, management acknowledged the need to avoid making major
                 investments in new systems unless both added value to customers and
                 compatibility with related systems can be demonstrated.

                 The CFO is working on the Strategic Information Management process
                 for BMIS to baseline the current environment, identify requirements,
                 and develop a business case for investment in this major initiative. This
                 effort is co-chaired by the Chief Information Officer and involves
                 representatives from most of the Headquarters program offices and all
                 major field offices. This initiative is in the early stages; however, every
                 effort is being taken to involve all business processes to improve
                 integration and eliminate current and future duplication. This process
                 is specifically intended to coordinate the BMIS initiative and promote
                 participation from everyone.


AUDITOR          Management's comments and proposed corrective actions are
COMMENTS         responsive to the recommendation.




Page 15                                             Recommendation And Comments
Appendix 1
SCOPE         We conducted fieldwork from March through July 1998 at Department
              of Energy Headquarters offices in Washington, DC and Germantown,
              MD. Fieldwork consisted of meetings with officials in the Office of
              Human Resources and Administration and the Chief Financial Officer.


METHODOLOGY   We discussed the Fund's system of internal controls with officials
              responsible for managing Fund activities and separate business lines. We
              observed and tested the system of internal controls to evaluate the
              adequacy, accuracy, and efficiency of the components of that system:
              control environment, risk assessment, control activities, information and
              communications, and monitoring. Based on an analysis of costs and
              business line complexity, we performed detail testing of three business
              lines to ensure that the Fund was meeting the expectations established by
              the Congress. This testing included determining whether pricing policies
              were reasonable, Board representation was fair, advance payments were
              in excess of Fund needs, proper disposition of unobligated Funds was
              made, and Federal and Departmental Administration costs were
              appropriately excluded. In addition, we traced costs from source
              documents through the FMS to determine the adequacy and efficiency of
              the information systems. Finally, we tested whether the Fund was
              operated in an economic and efficient manner by conducting a survey of
              program office officials, reviewing performance measures at the business
              line and Fund management level, analyzing costs incurred by each
              business line since the Fund's inception to identify anomalies and trends,
              determining the adequacy of contractor support for operating the
              business lines, and comparing prices of goods offered in-house to prices
              offered by private vendors.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Our assessment of the
              significant internal controls consisted of reviews of pricing and financial
              related policies and general operating policies and procedures as well as
              tests of billing controls. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit. Although computer-processed data was
              not significant to the findings, we included tests to trace data from the
              Fund's billing system to supporting documentation.

              Officials from the Office of Human Resources and Administration
              waived an exit conference.

Page 16                                                     Scope And Methodology
Appendix 2
             The objectives of the Fund can only be fully achieved through the
             establishment of a mechanism to capture the full costs of providing
             administrative goods and services and the periodic analysis of this
             information through operating efficiency metrics. Statement of Federal
             Financial Accounting Standards Number 4, "Managerial Cost
             Accounting Concepts and Standards for the Federal Government,"
             encourages Federal entities to use full cost information in making
             economic decisions on whether to continue providing a product or
             service. As we reported last year, without a mechanism to identify the
             unreimbursed costs, the Board had no baseline to identify the most
             efficient practices, nor could it make informed decisions on whether
             services provided by the Fund were competitive with the private sector.

             In response to a recommendation issued during the 1997 audit, Fund
             management addressed the impact on the existing business lines of
             including the full costs of goods and services in the pricing structure.
             Fund management estimated that the cost of Federal salaries and other
             indirect costs for Fiscal Year 1999 would be about $11 million. The
             report concluded that the Desktop, Supply, and Printing and Graphics
             Business Lines would be impacted the most by a full cost pricing
             structure because these business lines are supported by large Federal
             staffs and have pricing policies more closely linked to consumption.

             Fund management suggested that full cost analyses of the business lines
             be performed periodically to ensure the cost effectiveness of these
             services. Although the Fund currently does not recover the cost of
             Federal employees from customers, without a mechanism to consistently
             capture and report the full costs of goods and services offered by the
             Fund, the business lines subject to outside competition are not operating
             in a true market atmosphere. HR subsidization gives these business lines
             an unfair advantage over outside competitors by artificially keeping their
             prices competitive. A true market atmosphere cannot exist unless
             program customers have information available to compare the full costs
             of goods and services offered by the Department to the fully loaded
             prices of those offered by outside vendors. We agree that periodic
             analyses of the full cost incurred by each business line should be
             performed to help achieve the Fund's objective of increasing the
             efficiency of the Department's operations as a whole.




Page 17                                                                Other Matters
                                                                     IG Report No. CR-B-99-01

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                            http://www.hr.doe.gov/ig


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
